HHS/OIG, Audit -"Review of Medicare Payments for Beneficiaries With Institutional Status at HealthAmerica Pennsylvania, Inc. for the Period January 1, 2000 Through May 31, 2002,"(A-07-02-00150)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Payments for Beneficiaries With Institutional Status
at HealthAmerica Pennsylvania, Inc. for the Period January 1, 2000 Through May
31, 2002," (A-07-02-00150)
June 25, 2003
Complete
Text of Report is available in PDF format (1.27 mb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine if capitation payments to HealthAmerica
Pennsylvania, Inc. (HealthAmerica), contract number H3959, were appropriate for
beneficiaries reported as institutionalized for the audit period.  We determined
that HealthAmerica received Medicare overpayments totaling $26,000 for 15 beneficiaries
incorrectly classified as institutionalized during the audit period.  Some
of the overpayments occurred because of the lack of oversight of internal control
procedures.  Other overpayments occurred due to the lack of procedures requiring
managed care organizations to determine if the beneficiary resided in a certified
distinct part of the institution.  We recommended that HealthAmerica refund
the overpayments, ensure adherence to policies and procedures for verifying institutional
care, and develop more effective internal control procedures.